DOE/IG-0420



         AUDIT
        REPORT


                                            THE
                                U.S. DEPARTMENT OF ENERGY’S
                                   SOLAR ENTERPRISE ZONE




                                            APRIL 1998




   U.S. DEPARTMENT OF ENERGY
  OFFICE OF INSPECTOR GENERAL
    OFFICE OF AUDIT SERVICES
                                                April 24, 1998


MEMORANDUM FOR THE SECRETARY

FROM:                  Gregory H. Friedman
                       Acting Inspector General

SUBJECT:               INFORMATION: Audit Report on "The U.S. Department of
                       Energy's Solar Enterprise Zone"

BACKGROUND

To demonstrate the commercial viability of producing and marketing solar generated power, the Department
of Energy is supporting the construction of a solar facility in the State of Nevada. The purpose of the audit
was to determine if the Department had fully examined the costs and benefits of siting a solar facility at the
Nevada Test Site and at alternative sites in Nevada.

RESULTS OF AUDIT

As a result of our audit work, the Office of Inspector General concluded that there were two major issues
that need to be addressed and resolved before a decision is made to locate a solar facility at the Test Site or
elsewhere. The first concerns sponsorship of the project. We found that sponsorship within the Department
is presently fragmented and that the Office of Energy Efficiency and Renewable Energy, which has the
expertise and program responsibility in furthering solar energy, neither manages nor funds the project. The
second concern focuses on the establishment of appropriate siting criteria for the solar facility which fully
considers cost, commitment, capacity and commercialization issues.

In March 1998, the Deputy Secretary issued guidance on the proposed purchase of solar power by the
Nevada Test Site. This guidance established specific purchase criteria and conditions which must be met if
the Department is to proceed with this transaction. Our audit concerns encompass this and other issues.
The audit report includes additional suggested actions to address these other matters.

Attachment

cc: Deputy Secretary
    Under Secretary
THE SOLAR ENTERPRISE ZONE

 TABLE OF
 CONTENTS



                 Introduction and Objective .............................................. 1


                 Background..................................................................... 1


                 Concerns ........................................................................ 2


                 Suggested Actions.......................................................... 4
The Solar Enterprise Zone
INTRODUCTION AND     As described in its Strategic Plan, the Department of Energy (DOE) is
OBJECTIVE            responsible for advancing renewable energy technologies. In fulfilling its
                     mission, DOE has identified four sites in southern Nevada, including the
                     Nevada Test Site (NTS), which would be suitable for constructing a
                     solar facility. To further demonstrate the commercial viability of
                     producing and marketing solar generated power, the facility would be
                     built and operated by a commercial company. The purpose of the audit
                     was to determine if DOE had fully explored the costs and benefits of
                     siting a solar facility at the NTS versus the alternative sites.

                     The National Defense Authorization Act for Fiscal Years 1992 and 1993
BACKGROUND           directed DOE to study the NTS for possible conversion, development,
                     and utilization as a location for a commercial facility for solar generated
                     power. In April 1994, the Nevada Operations Office and the Office of
                     Energy Efficiency and Renewable Energy issued the Nevada Test Site
                     Solar Feasibility Study report. The report identified a goal of a 1,000
                     megawatt (MW) capacity solar facility. However, the report considered
                     only the NTS as a location. Further, it acknowledged that siting a plant
                     on the NTS would: 1) cost millions of dollars for needed upgrades to the
                     electrical distribution infrastructure, and 2) require new transmission
                     capabilities to connect a solar facility on the NTS to the commercial
                     power grid.

                     In June 1994, the Secretary of Energy formed a task force comprised of
                     state, Federal, and industry representatives and assigned the Assistant
                     Secretary for Energy Efficiency and Renewable Energy as co-chairman.
                     The task force issued a report in December 1994 in which it increased
                     the estimated infrastructure costs needed for a 1,000 MW capacity
                     facility at the NTS. As a result, the task force identified two alternatives
                     -- building a facility off-site or building more than one solar facility. The
                     report also identified three possible off-site locations in southern Nevada
                     and designated these sites, along with the NTS, as the Solar Enterprise
                     Zone (Zone). The purpose of introducing alternative sites was to keep
                     the infrastructure cost to a minimum and to avoid the constraints
                     imposed by the physical limitations of some sites. The task force was
                     dissolved in January 1995 after issuing the final report.

                     In February 1995, the Assistant Secretary for Energy Efficiency and
                     Renewable Energy asked that a grant from Worker and Community
                     Transition funds be awarded to the Corporation for Solar Technologies
                     and Renewable Resources (CSTRR). The purpose of the grant was to
                     facilitate the commercialization of solar and renewable energy



Page 1                                                                       Details of Finding
The Solar Enterprise Zone
                     technologies within the Zone. In June 1995, the Nevada Operations
                     Office awarded CSTRR a $7.5 million grant. At the time of this report
                     $4.0 million of the award had been made available to CSTRR. In
                     October 1996, CSTRR selected a commercial company to construct and
                     operate a 10 MW solar power facility as part of a stepped approach to
                     reach the 1,000 MW goal. This facility is tentatively sited on the NTS.

                     In March 1998, the Deputy Secretary issued guidance on the proposed
                     Nevada Test Site purchase of solar power. This guidance established
                     specific purchase criteria and conditions which were essential if the
                     Department were to proceed with this transaction.

CONCERNS             It appeared that DOE had not fully explored the costs and benefits of
                     siting a solar facility at the NTS versus the alternative sites. The audit
                     identified two major concerns that need to be addressed by senior DOE
                     officials before a decision is made to locate a solar facility on the NTS or
                     elsewhere. The first is sponsorship of the project within DOE, and the
                     second is the establishment of appropriate siting criteria.

                     Of the three organizations that have supported the project to date, only
                     one, the Office of Energy Efficiency and Renewable Energy, has
                     expertise and program responsibility for furthering solar technologies.
                     However, that office neither funds nor manages the CSTRR grant. The
                     Nevada Operations Office awarded and administers the CSTRR grant;
                     however, the Operations Office's oversight of DOE efforts in Nevada is
                     primarily focused on defense and environmental activities. The Office of
                     Worker and Community Transition funds the grant. However, that
                     office's focus is on mitigating the impacts on the local economy of site
                     downsizing, not on furthering solar technologies. Because of the
                     fragmented support, CSTRR has sought and received programmatic
                     guidance from various DOE organizations, including the Secretary of
                     Energy's Office. In the future, sponsorship should rest with the office
                     that can best provide solar energy programmatic guidance and support.

                     With respect to siting criteria, four issues have surfaced concerning the
                     practicality and feasibility of a solar facility. The issues are cost,
                     commitment, capacity, and commercialization.

                        • Cost. The task force recognized that locating a solar plant on the
                          NTS would require a significant infrastructure expenditure for
                          DOE. To construct a facility with a capacity between 100 and
                          550 MW, would cost DOE about $55 million for upgrading its
                          infrastructure and connecting to the local power grid,
                          approximately 60 miles away. A 100 MW capacity facility was

Page 2                                                                      Details of Finding
The Solar Enterprise Zone
                             approximately 60 miles away. A 100 MW capacity facility was
                            also considered, but that would still require an investment of
                            approximately $2.3 million for infrastructure improvements. The
                            projected 10 MW facility is estimated to require $1.5 million in
                            infrastructure improvements if it is located at the NTS. In any
                            case, DOE is far short of its 1,000 MW capacity goal unless it
                            considers additional solar facilities. Conversely, a 1,000 MW
                            facility at an off-site location would cost DOE and the power
                            purchasers, most of which currently would be Federal entities,
                            about $2.9 million to upgrade the infrastructure and connect to
                            the power grid.

                       • Commitment. Placing the solar power facility at the NTS will
                         commit DOE to a number of long-term obligations, some of
                         which may involve an indeterminate amount of funds. First, land
                         to accommodate the facility will be unavailable for other uses, as
                         may adjacent lands. Second, DOE may need to commit to a
                         long-term purchase agreement for power generated by an on-site
                         solar facility. The company selected by CSTRR has stated that it
                         would want a 30-year purchase guarantee from DOE and other
                         power purchasers. Third, if the effort is not successful, DOE may
                         have a financial or legal obligation to the commercial owners of
                         the facility. Fourth, DOE will have an obligation to seek the
                         necessary funding from the Congress to support the substantial
                         infrastructure improvements that are needed. Conversely, if a
                         plant is built at an off-site location, DOE's obligations will not be
                         as severe because the power can be more easily marketed.

                       • Capacity. The NTS does not need a facility with a 1,000 MW
                         capacity. In fact, a 25 MW capacity facility would power the
                         peak requirements of the NTS. A facility on the NTS that
                         produces more than 100 MW of power would require the
                         construction of a 60-mile power line so the excess power could
                         be transmitted off-site to a commercial power grid. If a 1,000
                         MW facility was built off-site near existing transmission facilities,
                         substantial costs for constructing the power lines and upgrading
                         the NTS infrastructure could be avoided. Such a facility would
                         meet the production goal established in the Feasibility Study
                         report, and customers interested in purchasing part of the
                         production have already been identified.

                       • Commercialization. The principal reason for building a solar



Page 3                                                                    Details of Finding
The Solar Enterprise Zone
                       • Commercialization. The principal reason for building a solar
                         power facility is to demonstrate the future viability of solar power
                         technologies. However, this effort may be hindered if the facility
                         was located on the NTS. For instance, the NTS is 65 miles from
                         Las Vegas and access to, and visibility of, the facility would be
                         restricted. Further, infrastructure improvements will need to be
                         addressed before significant production is practical. If the
                         facility were located off-site, however, it could be more readily
                         accessible and expenditures that may have been required to
                         upgrade the infrastructure could be used to promote the use of
                         solar power.

SUGGESTED ACTIONS    Before DOE makes a long-term commitment to a solar facility at the
                     NTS or elsewhere, the concerns identified in this report should be
                     addressed. Specifically, DOE needs to assign an appropriate
                     programmatic sponsor to this project to serve as the liaison with CSTRR
                     and other DOE elements. The sponsor should develop siting criteria
                     that will facilitate the commercial development of a solar power facility
                     in the most practical, feasible, and cost effective manner. Further, the
                     criteria should consider cost, commitment, capacity, and
                     commercialization.




                                           _________/s/_____________
                                           Office of Inspector General




Page 4                                                                    Details of Finding
                                                                           Report No. _DOE/IG-0420


                                 CUSTOMER RESPONSE FORM

The Office of Inspector General has a continuing interest in improving the usefulness of its products.
We wish to make our reports as responsive as possible to our customers' requirements, and therefore
ask that you consider sharing your thoughts with us. On the back of this form, you may suggest
improvements to enhance the effectiveness of future reports. Please include answers to the following
questions if they are applicable to you:

1. What additional background information about the selection, scheduling, scope, or
   procedures of the audit would have been helpful to the reader in understanding this report?

2. What additional information related to findings and recommendations could have been included
   in this report to assist management in implementing corrective actions?

3. What format, stylistic, or organizational changes might have made this report's overall message
   more clear to the reader?

4. What additional actions could the Office of Inspector General have taken on the issues discussed
   in this report which would have been helpful?

Please include your name and telephone number so that we may contact you should we have any
questions about your comments.

Name____________________________________Date________________________

Telephone_______________________Organization___________________________

When you have completed this form, you may telefax it to the Office of Inspector General at
(202) 586-0948, or you may mail it to:

               Office of Inspector General (IG-1)
               U.S. Department of Energy
               Washington, D.C. 20585
               ATTN: Customer Relations

If you wish to discuss this report or your comments with a staff member of the Office of Inspector
General, please contact Wilma Slaughter at (202) 586-1924.
 The Office of Inspector General wants to make the distribution of its reports as customer friendly and cost
   effective as possible. Therefore, this report will be available electronically through the Internet at the
                                        following alternative address:


               U.S. Department of Energy Human Resources and Administration Home Page
                                       http://www.hr.doe.gov/ig

Your comments would be appreciated and can be provided on the Customer Response Form
attached to the report.

                                    This report can be obtained from the
                                        U.S. Department of Energy
                               Office of Scientific and Technical Information
                                                P.O. Box 62
                                       Oak Ridge, Tennessee 37831
